FEC -- Semiannual Report:  Executive Summary (9/94)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending September 30, 1994
If you require the entire printed version of this report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General
Act of 1978, as amended, and includes a summary of the Office of
Inspector General's activities for the period April 1, 1994
through September 30, 1994.
The Office of Inspector General (OIG) completed two audits
and three investigations during this reporting period.  The
subjects of the audits were the solicitation and management of
the Commission's data entry contract and the Employee Transit
Benefit program.  In both audits, the agency managed these areas
efficiently.  The OIG discovered that the presence of the Transit
Benefit program has changed a significant number of employees
mode of transportation, in accordance with the purpose of the
Act.  Both audits are detailed in the Audits section of this
report.
None of the three investigations closed required any action
on the Commission's part.  There was no evidence of employee
wrong doing in any of these cases.  Further information
concerning the investigative activities of the OIG can be found
in the Investigations section of this report.